TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Internal Revenue Service Successfully
                   Accounted for Employees and Restored
                    Computer Operations After Hurricanes
                               Katrina and Rita



                                            March 2006

                              Reference Number: 2006-20-068




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 March 30, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER
                CHIEF, MISSION ASSURANCE AND SECURITY SERVICES

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Internal Revenue Service Successfully
                              Accounted for Employees and Restored Computer Operations After
                              Hurricanes Katrina and Rita (Audit # 200620036)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) efforts to
 protect employees and taxpayer data in the offices affected by Hurricanes Katrina and Rita. The
 overall objectives of this review were to evaluate the IRS’ preparatory actions prior to the arrival
 of Hurricanes Katrina and Rita, the recovery actions taken in the Hurricanes’ aftermath, and the
 actions taken to protect taxpayer data in the offices damaged by the Hurricanes. This review was
 conducted in conjunction with the President’s Council on Integrity and Efficiency (PCIE)1 as
 part of its examination of relief efforts provided by the Federal Government in the aftermath of
 Hurricanes Katrina and Rita. As such, a copy of the report will be forwarded to the PCIE
 Homeland Security Working Group, which is coordinating the Inspectors’ General reviews of
 this important subject.

 Synopsis
 The IRS employs over 500 persons in the offices most affected by Hurricanes Katrina and Rita.
 These employees are responsible for communicating directly with taxpayers to provide customer
 service and enforce tax laws by examining tax returns and collecting delinquent taxes. By
 adequately planning and taking aggressive actions after the Hurricanes, the IRS was able to


 1
  The PCIE was established by Executive Order 12805, May 11, 1992, to address integrity, economy, and
 effectiveness issues that transcend individual Federal Government agencies and to increase the professionalism and
 effectiveness of Inspector General personnel throughout the Federal Government. The PCIE is primarily comprised
 of the Presidentially appointed Inspectors General.
                      The Internal Revenue Service Successfully Accounted for
                           Employees and Restored Computer Operations
                                  After Hurricanes Katrina and Rita



locate its employees and restore its computer operations to continue tax administration activities
in the Gulf Coast area. This audit is 1 of 10 audits the Treasury Inspector General for Tax
Administration is conducting to address additional
tax administration issues resulting from these              By adequately planning and taking
natural disasters.                                       aggressive actions after the Hurricanes,
                                                               the IRS was able to locate its employees
Hurricane Katrina made landfall at the Central          and restore its computer operations to
Gulf Coast of the United States on                      continue tax administration activities in
August 29, 2005. It caused unprecedented damage                   the Gulf Coast area.
to New Orleans, Louisiana, as well as the coastal
areas of Mississippi and Alabama, and became the most destructive and costliest natural disaster
in the United States’ history. Hurricane Rita followed less than 1 month later and further
damaged New Orleans and the Gulf Coast area of Texas. The IRS had 25 offices affected by the
Hurricanes, many of which were closed for short durations due to sustained power outages. The
following five offices, however, received significant damage, which forced closure for longer
periods of time: New Orleans, Louisiana (Poydras Street); New Orleans, Louisiana
(Hebert Building); Lake Charles, Louisiana; Gulfport, Mississippi; and Beaumont, Texas.
The IRS adequately prepared for Hurricanes Katrina and Rita. The IRS had sufficiently updated
its Occupant Emergency Plans2 in May 2005 and Incident Management Plans3 in March 2004 for
the offices affected by the Hurricanes and conducted training sessions for its designated Incident
Commanders.4 It also took actions immediately prior to the Hurricanes to enhance
post-hurricane employee communications, ensure continued salary payments, and minimize
computer damage in its offices affected by the Hurricanes.
After the Hurricanes made landfall, the IRS took appropriate actions to expeditiously locate all
employees and restore computer operations in the offices affected by the Hurricanes. Emergency
Operations Command Centers were established in Nashville, Tennessee, and Dallas, Texas,
immediately after Hurricanes Katrina and Rita, respectively. The IRS focused its primary
attention on finding all employees in offices affected by the Hurricanes. All 517 employees in
those offices were accounted for within 13 days after Hurricane Katrina, and all 35 employees
were accounted for within 5 days after Hurricane Rita.




2
  An Occupant Emergency Plan contains the procedures for employees to follow during an emergency situation.
3
  An Incident Management Plan describes the overall coordinated actions to be taken by the Incident Management
team to ensure recovery and restoration of a facility when an incident occurs.
4
  An Incident Commander is directly responsible for frontline management of an incident. The Incident
Commander, in conjunction with other onsite business team managers, will develop and implement response
strategies and use existing disaster preparedness documents for the recovery of business operations.
                                                                                                                 2
                       The Internal Revenue Service Successfully Accounted for
                            Employees and Restored Computer Operations
                                   After Hurricanes Katrina and Rita



As for its computer operations in the offices affected by the Hurricanes, the IRS restored system
access to its Integrated Collection System5 application from the 5 affected offices to the
Atlanta, Georgia, office within 5 workdays. Personnel from the Modernization and Information
Technology Services6 organization also transferred employees’ work files to another network so
employees in affected offices had access to them and could continue to work.
However, we are unable to definitively state that taxpayer data were protected in the wake of
Hurricanes Katrina and Rita because we were unable to locate seven computers from two offices
affected by the Hurricanes.
    •   The IRS’ one-story Gulfport, Mississippi, office sustained hurricane damage that could
        have allowed an intruder to enter the office through a portion of the metal roof that was
        damaged. The building was unprotected for 2 weeks. We conducted a reconciliation of
        computers in that office and could not locate three desktop computers. We believe these
        computers may have contained taxpayer data because the computers were used by
        customer service and enforcement employees. The IRS had not conducted a physical
        reconciliation of its computers for any of the five offices affected by the Hurricanes
        before we began our review. As such, we could not determine if the computers were
        stolen by an intruder, lost during the move into temporary trailers after the Hurricane, or
        removed from the office prior to the Hurricane.
    •   We were also unable to locate four laptop computers in the New Orleans, Louisiana,
        Poydras Street office. The laptop computers were not assigned to specific employees
        and, according to the IRS, all data are routinely erased before the computers are returned
        to a storage room. The IRS indicated it may have reassigned the laptop computers to
        employees affected by the Hurricanes without updating the computer asset tracking
        system.
We confirmed that none of the missing computers were used to access the IRS computer network
after the Hurricanes, so any loss of data would have been limited to the data on the computers.

Recommendations
We recommended the Chief, Mission Assurance and Security Services, establish procedures to
require a team of employees or government entities to visit an office as soon as possible, but no
later than 72 hours, after a major disaster to evaluate the security of the office’s perimeter. If


5
  The Integrated Collection System is a case processing application that supports IRS employees who work
delinquent taxpayer cases (i.e., taxpayers who have not filed tax returns or paid tax obligations).
6
  The Modernization and Information Technology Services organization is responsible for supporting the IRS on
Information Technology issues, which include protecting and restoring computer operations and locating all
computers after a disaster.
                                                                                                                3
                    The Internal Revenue Service Successfully Accounted for
                         Employees and Restored Computer Operations
                                After Hurricanes Katrina and Rita



security has been compromised, the team should take necessary actions to either secure the
perimeter or implement measures to prevent unauthorized access into the office. We also
recommended the Chief Information Officer establish procedures to conduct an inventory
reconciliation of all computers at IRS facilities which suffer extensive damage after any major
disaster to identify possible loss or theft of computers. This reconciliation should be performed
within 30 days after the disaster.

Response
The IRS agreed with our findings and recommendations. However, the Chief, Mission
Assurance and Security Services, indicated that, depending on the type and severity of the
disaster, there may be circumstances in which the IRS might be unable to physically access the
affected IRS facility or the surrounding area, or not be allowed access to the affected facility or
area by local authorities, within 72 hours of the disaster. The Chief, Mission Assurance and
Security Services, further stated the IRS has procedures currently in place for conducting an
initial and thorough damage assessment of IRS facilities affected by an incident or disaster and
for providing appropriate security of IRS property and information.
The Chief Information Officer will revise the Internal Revenue Manual to include procedures for
conducting an inventory reconciliation of all computers at extensively damaged IRS facilities
after any major disaster. The inventory reconciliation will be performed within 30 days after a
disaster pending the advice of local authorities. Management’s complete response to the draft
report is included as Appendix IV.

Office of Audit Comment
We agree the procedures for damage assessment after an incident or disaster are comprehensive;
however, there is no time criterion given for when the assessment should occur. We
acknowledge our 72-hour criterion is arbitrary, but its inclusion in the procedures would
illustrate the criticality and need to quickly assess and protect IRS assets, including taxpayer
data. For Hurricane Katrina and the IRS’ Gulfport, Mississippi, office, the assessment team
arrived 2 weeks after the Hurricane, even though a Criminal Investigation function manager
visited the damaged office 2 days after the Hurricane.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                      4
                           The Internal Revenue Service Successfully Accounted for
                                Employees and Restored Computer Operations
                                       After Hurricanes Katrina and Rita




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Was Adequately Prepared to
          Resume Operations at the Offices Affected by Hurricanes
          Katrina and Rita ............................................................................................Page 3
          The Internal Revenue Service Took Aggressive Actions to
          Account for Its Employees and Restore Computer Operations
          After Hurricanes Katrina and Rita ................................................................Page 6
                    Recommendations 1 and 2: ..............................................Page 11


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Management’s Response to the Draft Report ......................Page 18
                       The Internal Revenue Service Successfully Accounted for
                            Employees and Restored Computer Operations
                                   After Hurricanes Katrina and Rita




                                             Background

Hurricane Katrina made landfall at the Central Gulf Coast of the United States on
August 29, 2005, and caused unprecedented damage to New Orleans, Louisiana, as well as the
coastal areas of Mississippi and Alabama. The National Hurricane Center described this
Category 51 Hurricane as one of the most powerful storms ever to form over the Atlantic Ocean.
Several levee systems in New Orleans, Louisiana, collapsed and most of the city was flooded by
water, making Hurricane Katrina the most destructive and costliest natural disaster in the United
States’ history. Less than 1 month later, Hurricane Rita made landfall in Florida and proceeded
west to strike Louisiana and Texas. Hurricane Rita, also classified as a Category 5 hurricane,
further damaged some of the levee breaches caused by Hurricane Katrina and reflooded parts of
New Orleans, Louisiana. Also, post-landfall damage was extensive in the coastal areas of
southwestern Louisiana and southern Texas.
Because of these 2 Hurricanes, over 430 counties across Florida, Alabama, Mississippi,
Louisiana, and Texas were declared disaster areas. The Internal Revenue Service (IRS) had
25 offices affected by the Hurricanes, many of which were closed for short durations due to
sustained power outages. The following five offices, however, received significant damage
forcing them to close for longer periods of time:
    •   New Orleans, Louisiana (Poydras Street).
    •   New Orleans, Louisiana (Hebert Building).
    •   Lake Charles, Louisiana.
    •   Gulfport, Mississippi.
    •   Beaumont, Texas.
The Senate Finance Committee requested the Treasury Inspector General for Tax Administration
determine whether the IRS protected taxpayer data in the offices affected by the Hurricanes. In
response to this Congressional inquiry, we initiated a review focused on disaster preparation,
recovery efforts, and the protection of taxpayer data. This audit is 1 of 10 audits we are
conducting to address additional tax administration issues resulting from these natural disasters.




1
  The National Hurricane Center of the National Weather Service uses the Saffir-Simpson Hurricane Scale of
1 through 5 to gauge a hurricane’s intensity. The rating provides an estimate of the potential property damage and
flooding expected from a hurricane landfall. A Category 5 hurricane has winds greater than 155 miles per hour.
                                                                                                            Page 1
                       The Internal Revenue Service Successfully Accounted for
                            Employees and Restored Computer Operations
                                   After Hurricanes Katrina and Rita



In addition, we conducted this review in conjunction with the President’s Council on Integrity
and Efficiency (PCIE)2 as part of its examination of relief efforts provided by the Federal
Government in the aftermath of Hurricanes Katrina and Rita.
This review covered the five offices significantly affected by the Hurricanes and was performed
in IRS offices of the Mission Assurance and Security Services organization and the
Modernization and Information Technology Services (MITS) organization in
New Carrollton, Maryland, and the Area Offices in New Orleans, Louisiana, and
Gulfport, Mississippi, during the period November 2005 through February 2006. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objectives, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




2
 The PCIE was established by Executive Order 12805, May 11, 1992, to address integrity, economy, and
effectiveness issues that transcend individual Federal Government agencies and to increase the professionalism and
effectiveness of Inspector General personnel throughout the Federal Government. The PCIE is primarily comprised
of the Presidentially appointed Inspectors General.
                                                                                                          Page 2
                       The Internal Revenue Service Successfully Accounted for
                            Employees and Restored Computer Operations
                                   After Hurricanes Katrina and Rita




                                      Results of Review

The Internal Revenue Service Was Adequately Prepared to Resume
Operations at the Offices Affected by Hurricanes Katrina and Rita
The IRS maintains several types of documents on handling emergencies and disaster
preparedness. Two of these documents, the Occupant Emergency Plans and Incident
Management Plans, are pertinent to all disasters and cover all IRS offices.
    •   An Occupant Emergency Plan is required for all IRS offices and is designed to address
        safety issues of the employees and any visitors to a building at the time of an emergency.
        When an emergency exists within a building, the occupants are directed to follow an
        evacuation plan. However, if the emergency exists outside of the building,
        shelter-in-place plans3 may be activated. An Occupant Emergency Plan designates
        individuals to take charge and ensure the safety of the employees, the visitors, and the
        facility itself. IRS guidelines define specific potential emergencies that include fires,
        bomb threats, explosions, hazardous materials, demonstrations, winter storms, tornados,
        power failures, severe weather, earthquakes and other natural and human-caused
        disasters. Larger employee-occupied offices have a customized Occupant Emergency
        Plan tailored to the specific office, while smaller offices have a basic Occupant
        Emergency Plan.
    •   An Incident Management Plan defines how to establish an Incident Management team
        and defines the responsibilities of the emergency team members. An Incident
        Management Plan provides guidelines for the Incident Commander4 to follow in
        responding to the incident and communicating with the National Headquarters office. An
        Incident Management Plan also covers the important function of locating missing
        employees. As such, an Incident Management Plan provides the structure for the
        Incident Commander to create and maintain an Incident Management team where all
        incident response efforts are coordinated and integrated.
We reviewed the Occupant Emergency Plans for the five offices significantly affected by the
Hurricanes and found the specific Occupant Emergency Plans were updated by May 2005 and


3
  Shelter-in-place plans address certain emergency situations where circumstances dictate that building occupants
remain inside the building rather than trying to evacuate.
4
  An Incident Commander is directly responsible for frontline management of an incident. The Incident
Commander, in conjunction with other onsite business team managers, will develop and implement response
strategies and will use existing disaster preparedness documents for the recovery of business operations.
                                                                                                            Page 3
                      The Internal Revenue Service Successfully Accounted for
                           Employees and Restored Computer Operations
                                  After Hurricanes Katrina and Rita



complied with IRS guidance and standards. The Occupant Emergency Plans for three offices,
the Beaumont, Texas, and the two New Orleans, Louisiana, offices, provided extensive
information on dealing with many different types of emergencies. Managers in these three
offices were directed to maintain current home telephone numbers for employees reporting to
them. In addition to providing instructions on dealing with the more common emergencies, the
Occupant Emergency Plans for these three offices covered shelter-in-place plans and potential
terrorist threats. The abbreviated Occupant Emergency Plans for the Lake Charles, Louisiana,
and Gulfport, Mississippi, offices contained the basic information for local staff members to deal
with five types of emergencies: fire or smoke, earthquakes, severe weather, bomb threats, and
civil disturbances. Individuals were designated specific responsibilities, and local emergency
telephone contact information was listed.
In March 2004, the IRS issued an Incident Management Plan template to be used by its
18 Senior Commissioner’s Representatives.5 Each Senior Commissioner’s Representative was to
maintain the core format of the Incident Management Plan template but could add the local
contact information for the assigned area. In April 2005, the IRS held a training session for its
Incident Commanders on the implementation of its standardized Incident Management Plan.
Coincidentally, the emergency used during the training session was a hurricane.
In July 2004, the IRS formed a cross-functional group, the Emergency Management and
Preparedness Working Group,6 that meets monthly to address issues associated with the IRS’
response to potential disasters or crises. This Group considers the overall responsibilities of the
staff during a crisis and which functional areas of the IRS are best suited to respond to the
various issues related to an incident. The Group also defines the roles and responsibilities of the
staff designated in the Incident Management Plan template and coordinates IRS actions and
activities in the areas of emergency management, business continuity of operations, business
resumption planning, Occupant Emergency Plans, shelter-in-place plans, Incident Management
Plans, as well as information systems disaster recovery and backup operations.
The IRS also completed several other noteworthy actions to prepare for disasters as well as for
these Hurricanes. First and foremost, the welfare of its employees is paramount when a disaster
occurs. For example:
    •   All managers were required to obtain personal contact information for employees in the
        event of an emergency. A reminder for this requirement was sent prior to the Hurricanes.


5
  Senior Commissioner’s Representatives are designated representatives authorized to act on behalf of the
Commissioner/Deputy Commissioners in cross-functional and certain other administrative areas. The
18 Senior Commissioner’s Representatives cover all IRS offices nationwide and are generally the Incident
Commanders for their respective areas when a disaster occurs.
6
  The Emergency Management and Preparedness Working Group is led by the Associate Director, Emergency
Management Program Office, under the Mission Assurance and Security Services organization. The Group is
tasked with improving and revising the IRS’ guidance to employees in managing future emergency situations.
                                                                                                        Page 4
                       The Internal Revenue Service Successfully Accounted for
                            Employees and Restored Computer Operations
                                   After Hurricanes Katrina and Rita



    •   In June 2005, an emergency hotline telephone number for its employees was established
        as well as an Internet web site where employees could obtain help, guidance, and
        information in the event of an emergency.
    •   The IRS planned for the delivery of paychecks in the event employees could not obtain
        money from their banks, and Western Union7 was used to facilitate immediate delivery of
        cash to several employees.
As for pre-hurricane computer-related efforts, local staffs from the MITS organization8 took
actions to properly shut down all services supported by computer operations in the five offices,
which minimized any electrical damage to computer hardware and its data. In addition, the IRS
had 13 servers for its Integrated Collection Systems (ICS)9 application in the New Orleans,
Louisiana, Poydras Street office, 1 ICS server in the Gulfport, Mississippi, office, and 1 ICS
server in the Beaumont, Texas, office. For this application, the MITS organization maintained a
Technical Contingency Document, which provides information for local system recovery in the
event of a disaster. The MITS organization also created routine daily backup tapes of the ICS
servers as well as employee home directory servers both locally and centrally at another location.
In addition, a pre-Hurricane Rita message advised laptop computer users to take their laptop
computers home with them.
Overall, we believe the IRS took adequate preparatory actions to ensure an orderly resumption of
operations in the offices affected by the Hurricanes. In addition, the Emergency Management
and Preparedness Working Group performed a post-hurricane review of the IRS’ response to the
Hurricanes and identified the following issues to improve the IRS preparation for future
disasters:
    •   Clarification of the roles and responsibilities of IRS staff members as related to disasters
        and emergencies, including the establishment of national leadership roles and
        responsibilities for a large-scale disaster, like the ones inflicted by Hurricanes Katrina
        and Rita.
    •   Establishment of policies and procedures governing administrative leave, timekeeping,
        and temporary placement for disaster-affected employees.
    •   Consideration of alternate methods of communicating with displaced employees.



7
  Western Union is a global leader in money transfer services with more than 225,000 agent locations worldwide.
8
  The MITS organization is responsible for supporting the IRS on Information Technology issues, which includes
protecting and restoring computer operations and locating all computers after a disaster.
9
  The ICS is a case processing application that supports IRS employees who work delinquent taxpayer cases
(i.e., taxpayers who have not filed tax returns or paid tax obligations). An ICS server is a computer devoted
primarily to the operation of the ICS application.
                                                                                                          Page 5
                     The Internal Revenue Service Successfully Accounted for
                          Employees and Restored Computer Operations
                                 After Hurricanes Katrina and Rita



     •   Development of a process-flow diagram to help IRS employees understand the roles and
         responsibilities of the Incident Commander and the Incident Management team during a
         disaster.
     •   Preparation of a presentation entitled Emergency Preparedness and Response at the
         Internal Revenue Service to raise awareness of emergency preparedness in its employees.
     •   Continuation of the Emergency Management and Preparedness Working Group’s
         assistance to business units in the development of plans to maintain or resume IRS
         functional operations.
     •   Consideration of the legal and privacy issues surrounding employee emergency contact
         information.
     •   Revisions of written guidance for emergencies.

The Internal Revenue Service Took Aggressive Actions to Account for
Its Employees and Restore Computer Operations After Hurricanes
Katrina and Rita
While the IRS was as prepared as possible, we acknowledge the arrival of 2 Category 5
Hurricanes in a span of 1 month could not have been reasonably foreseen. The IRS’ Incident
Management Plans did not consider the destruction of an entire region but were focused to
handle a disruption of any single IRS site. Much to its credit, the IRS adapted its Incident
Management Plans effectively to deal with the aftermath of the two Hurricanes.
The IRS established Emergency Operations Command Centers10 in Nashville, Tennessee, and
Dallas, Texas, for Hurricanes Katrina and Rita, respectively. These locations were selected due
to their close proximity to the areas affected by the Hurricanes and accessibility for Incident
Management team members. Approximately 30 IRS employees staffed the Nashville Center
during the days after Hurricane Katrina made landfall. The Emergency Operations Command
Centers coordinated and monitored all efforts and activities, and communicated updates on their
progress to the Deputy Commissioner for Operations Support on a daily basis.
Because of the widespread geographic damage of Hurricane Katrina and the multiple
disaster-related issues, incident management guidelines had to be adapted quickly and were
focused on operations (resumption of business), planning (tracking resources), logistics (physical
security and communications), and finance/administration (budget, time and attendance, and
procurements). The Emergency Operations Command Center in Nashville, Tennessee, was
staffed with employees possessing the specialized skills and knowledge to assist with these

10
  The Emergency Operations Command Center serves as the command post for all incident management decisions
and coordinates the business resumption for IRS offices affected by a disaster.
                                                                                                    Page 6
                    The Internal Revenue Service Successfully Accounted for
                         Employees and Restored Computer Operations
                                After Hurricanes Katrina and Rita



efforts. As a result, the IRS expeditiously accounted for all IRS employees and restored
computer operations in offices affected by the Hurricanes.

All IRS employees were accounted for and actions were taken to ensure their
safety
From the onset of Hurricane Katrina, the IRS’ number one priority was locating employees and
providing any needed assistance. The IRS employees working at the Emergency Operations
Command Centers in Nashville, Tennessee, and Dallas, Texas, used creative methods at their
disposal to locate the employees. Current time and attendance payroll records were initially used
as the basis for identifying employees in affected areas. Other methods used to locate affected
employees included contacts made by text messaging; visiting disaster web sites; and contacting
churches, food pantries, shelters, hospitals, and pharmacies. The IRS also contacted co-workers,
past and present, to elicit their aid in locating affected employees. A United States Coast Guard
helicopter was sent to two employees’ residences because it was impossible to reach them
through any other means.
In addition to actions taken by the Emergency Operations Command Centers, IRS employees
assisted in locating and helping their fellow employees. For example, an IRS Criminal
Investigation function manager in the Gulfport, Mississippi, office personally visited the homes
of every unaccounted employee from that office to confirm their safety. Another
Gulfport, Mississippi, employee drove approximately 50 miles to Slidell, Louisiana, to check the
safety and condition of a co-worker.
The IRS had a total of 517 employees displaced by
                                                                  The IRS accounted for all
Hurricane Katrina. All affected employees were located           517 employees affected by
within 13 days after the disaster. Hurricane Rita displaced         Hurricane Katrina and
35 additional employees, 11 employees at the                      35 additional employees
Lake Charles, Louisiana, office and 24 employees at the          affected by Hurricane Rita.
Beaumont, Texas, office. All affected employees were
located within 5 days after this respective disaster.
Concurrent with locating all of its affected employees, the IRS focused on assisting its
employees in maintaining basic needs. Because the offices in Gulfport, Mississippi;
New Orleans, Louisiana; Beaumont, Texas; and Lake Charles, Louisiana, were closed for
varying lengths of time due to health issues as well as electrical and telecommunications failures,
employees in these offices evacuated to other cities and States. Some IRS employees were
restricted from returning to their homes by local authorities, and some employees’ homes were
completely destroyed. The IRS worked with these displaced employees to provide them with
temporary employment in other locations. A total of 232 employees were given temporary work
in 19 different States across the nation. In addition, personnel from the IRS Human Capital



                                                                                            Page 7
                       The Internal Revenue Service Successfully Accounted for
                            Employees and Restored Computer Operations
                                   After Hurricanes Katrina and Rita



Office11 worked with the Office of Personnel Management to obtain approval for the 30-day
administrative leave for displaced IRS employees from the Hurricanes. Also, a counselor was
assigned to the IRS’ Emergency Operations Command Center staff to talk with employees and
their families to help them to cope with the trauma and devastation.

Computer operations were restored and data were protected, but we could not
locate seven computers
For the five offices, the IRS restored system access to its ICS application within 5 workdays by
moving data files from the offices affected by the Hurricanes to its Atlanta, Georgia, office.
Personnel from the MITS organization also transferred employees’ personal “home” directories
from local file servers to the servers in another office, allowing employees to have access to their
work files on the network so they could continue to work.
In addition, personnel from the MITS organization’s Enterprise Networks Division12 assisted the
National Finance Center13 in transferring its computer processing operations from
New Orleans, Louisiana, to its recovery site in Philadelphia, Pennsylvania. The Enterprise
Networks Division also provided emergency equipment to the overwhelmed Federal Emergency
Management Agency14 call sites and reconfigured15 2,500 existing IRS workstations to enable
Federal Emergency Management Agency staff members to work from 4 IRS locations.
However, we are unable to definitively state that taxpayer data were protected in the wake of
Hurricanes Katrina and Rita because we were unable to locate seven computers from two offices
affected by the Hurricanes.
     •   Of all IRS offices, the Gulfport, Mississippi, office sustained the greatest amount of
         structural damage from Hurricane Katrina. This 1-story office, which housed 39 IRS
         employees from various functions, sustained damage to the roof as well as interior
         structures, such as ceiling tiles and insulation. An IRS assessment team visited the office
         2 weeks after the Hurricane and indicated an intruder could have entered the office


11
   The Human Capital Office reports to the Deputy Commissioner for Operations Support. Its mission is to provide
human capital strategies and tools for recruiting, hiring, developing, and retaining a highly skilled and high
performing workforce to support tax administration.
12
   The mission of the Enterprise Networks Division is to positively satisfy IRS business units’ requirements by
providing all forms of electronic communications in the most efficient and effective manner. This Division is
responsible for managing the design and engineering of the telecommunications environment.
13
   The National Finance Center is a United States Department of Agriculture operation which provides payroll,
personnel, administrative payments, accounts receivable, property management, budget, and accounting activities
for its own agency as well as for over 130 other Federal Government agencies.
14
   The Federal Emergency Management Agency under the Department of Homeland Security is tasked with
responding to, planning for, recovering from, and mitigating against disasters.
15
   Reconfiguring computers entailed the changing of settings of each computer so the computer would connect to the
Federal Emergency Management Agency’s network while residing on the IRS’ computer infrastructure.
                                                                                                          Page 8
                       The Internal Revenue Service Successfully Accounted for
                            Employees and Restored Computer Operations
                                   After Hurricanes Katrina and Rita



         through a portion of the bent metal roof. Because most of the roof had to be removed to
         complete repairs, the building’s lessor required the IRS to remove all contents from the
         office. The IRS acquired temporary workspace for its employees in early October 2005.
         During this transition period, the IRS temporarily secured the damage and procured guard
         service to ensure no breaches occurred before the IRS could move its assets into more
         secure temporary quarters.
         Because of the damage to the building and the 2-week time period when the building was
         unprotected, we conducted a reconciliation of the 13 computers assigned to this office.
         We were unable to locate three desktop
         computers, which were not assigned to specific           We were unable to locate three
         employees according to the Information                     desktop computers in the
         Technology Asset Management System, the                 Gulfport, Mississippi, office that
         IRS’ official computer inventory tracking             may have contained taxpayer data.
         system. These three desktop computers were
         listed as shared computers, meaning anyone in
         the office could use them. We were unable to identify the contents on these computers.
         However, the employees in this office worked for various IRS customer service and
         enforcement functions and often used taxpayer data to either assist taxpayers or enforce
         tax requirements. As a result, we believe it is likely that the missing computers contained
         taxpayer data.
         When we initiated this review in November 2005, the IRS had not conducted a physical
         reconciliation of computer assets in any of the five offices affected by the Hurricanes.
         Therefore, we could not determine if the missing computers were stolen by an intruder,
         lost during the move into temporary trailers after the Hurricane, or removed from the
         office prior to the Hurricane.
     •   The IRS provides laptop computers for employees to use when they work outside of an
         IRS facility. The portability of laptop computers increases the likelihood of their being
         lost or stolen. The laptop computers may store sensitive information (e.g., taxpayer data)
         and they can also be used to access taxpayer data on the IRS network. To address these
         risks, laptop computers are equipped with upfront security controls (e.g., passwords) to
         limit access to the laptop computers’ contents as well as specific software to securely
         connect to the IRS network from offsite locations.
         We conducted an inventory reconciliation of all laptop computers in the five IRS offices
         affected by both Hurricanes. We identified 417 laptop computers assigned to the
         5 IRS offices (273 assigned to specific employees and 144 listed as unassigned).16 We


16
  The New Orleans, Louisiana, MITS organization staff services and supports a large geographical area with
12 posts-of-duty and needs to maintain a large number of unassigned laptop computers.
                                                                                                         Page 9
                    The Internal Revenue Service Successfully Accounted for
                         Employees and Restored Computer Operations
                                After Hurricanes Katrina and Rita



       were unable to account for four laptop computers, which were listed as “In Stock” in the
       New Orleans, Louisiana, Poydras Street office on the Information Technology Asset
       Management System. We could not determine if the missing laptop computers contained
       taxpayer data. When we discussed this issue with the IRS, the local MITS organization
       staff stated all data are routinely erased before laptop computers are returned to storage.
       We identified three possible scenarios for the missing laptop computers.
           1. Personnel from the MITS organization indicated the laptop computers may have
              been reassigned to displaced employees and the Information Technology Asset
              Management System was not properly updated with the new assignments.
              However, during our reconciliation of the 417 laptop computers, we contacted all
              273 employees assigned laptop computers in the 5 offices and determined that
              none of the employees had the missing computers.
           2. Hurricane Katrina caused some damage to the New Orleans, Louisiana, Poydras
              Street office. The IRS occupies the second through fifth floors of this highrise
              building. The damage to this office included broken windows, one on each of the
              second and third floors. Fortunately, very little interior damage was sustained.
              The building’s lessor boarded up the broken windows 17 days after Hurricane
              Katrina made landfall. Under normal circumstances, access through these
              windows would have been difficult.
               During the period when the windows remained broken, local and Federal
               Government officials maintained a heavily armed military and police presence in
               the area. Because the offices with the broken windows were visible from the
               main street, we believe the presence of law enforcement would have deterred
               anyone from attempting to enter through the broken windows. Although remote,
               it is possible that an intruder accessed the office and stole the laptop computers.
           3. During our visit to the New Orleans, Louisiana, Poydras Street office, we found
              one of the two rooms used to store computers was accessible to anyone with an
              IRS card key for the building. It is possible that someone with a building key
              could have accessed this room and stolen the laptop computers prior to our
              reconciliation.
The other three IRS offices sustained minor exterior damage, but entry points into the offices
were not damaged and showed no signs of unauthorized entry.
In addition to our reconciliation of laptop computers, we evaluated the validity of network
connections made from laptop computers. IRS employees can connect to the network either
through the local area network in the office or by secure communication channels using
telephone lines or high-speed cable connections in their homes. We identified 118 laptop
computers assigned to employees who connected to the IRS network within 1 month after

                                                                                           Page 10
                    The Internal Revenue Service Successfully Accounted for
                         Employees and Restored Computer Operations
                                After Hurricanes Katrina and Rita



Hurricane Katrina made landfall or within 1 week after Hurricane Rita made landfall. We
contacted employees for all 118 laptops and confirmed the connections were legitimate and
made by IRS employees. Using IRS software, we also confirmed none of the seven missing
computers identified during our review were used to access the IRS network after the
Hurricanes, so any loss of data would have been limited to the data on the computers.

Recommendations
Recommendation 1: The Chief, Mission Assurance and Security Services, should establish
procedures to require the IRS Incident Commander to send a small team of employees or other
government entities to affected IRS offices as soon as possible, but no later than 72 hours, after a
major disaster to assess each office’s structural state and ensure secure perimeters are
maintained. If perimeter security has been compromised, the team should take actions to either
secure the perimeter or implement measures to prevent unauthorized access into the office.
       Management’s Response: The IRS concurred with this recommendation. However,
       the Chief, Mission Assurance and Security Services, indicated that, depending on the
       type and severity of the disaster, there may be circumstances in which the IRS might be
       unable to physically access the affected IRS facility or the surrounding area, or not be
       allowed access to the affected facility or area by local authorities, within 72 hours of the
       disaster. The Chief, Mission Assurance and Security Services, further stated the IRS has
       procedures currently in place for conducting an initial and thorough damage assessment
       of IRS facilities affected by an incident or disaster and for providing appropriate security
       of IRS property and information.
       Office of Audit Comment: We agree the procedures for damage assessment after an
       incident or disaster are comprehensive; however, there is no time criterion given for when
       the assessment should occur. We acknowledge our 72-hour criterion is arbitrary, but its
       inclusion in the procedures would illustrate the criticality and need to quickly assess and
       protect IRS assets, including taxpayer data. For Hurricane Katrina and the IRS’ Gulfport,
       Mississippi, office, the assessment team arrived 2 weeks after the Hurricane, even though
       a Criminal Investigation function manager visited the office 2 days after the Hurricane.
Recommendation 2: The Chief Information Officer should establish procedures to conduct
an inventory reconciliation of all computers at IRS facilities which suffer extensive damage after
any major disaster to identify possible loss or theft of computers. This reconciliation should be
performed within 30 days after the disaster.
       Management’s Response: The IRS concurred with this recommendation. The Chief
       Information Officer will revise the Internal Revenue Manual to include procedures for
       conducting an inventory reconciliation of all computers at extensively damaged IRS
       facilities after any major disaster. The inventory reconciliation will be performed within
       30 days after a disaster pending the advice of local authorities.
                                                                                            Page 11
                      The Internal Revenue Service Successfully Accounted for
                           Employees and Restored Computer Operations
                                  After Hurricanes Katrina and Rita



                                                                                               Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to evaluate the Internal Revenue Service’s (IRS)
preparatory actions prior to the arrival of Hurricanes Katrina and Rita, the recovery actions taken
in the Hurricanes’ aftermath, and the actions taken to protect taxpayer data in the offices
damaged by the Hurricanes. We focused our review on the five IRS offices which received
significant damage and were forced to close for long periods of time: New Orleans, Louisiana
(Poydras Street); New Orleans, Louisiana (Hebert Building); Lake Charles, Louisiana;
Gulfport, Mississippi; and Beaumont, Texas. To accomplish our objectives, we conducted the
following audit steps:
I.      To determine whether the IRS was adequately prepared for a disaster of the magnitude of
        Hurricane Katrina and whether IRS business resumption plans could be improved to
        prepare for future disasters, we:
        A. Assessed the IRS’ overall preparedness for disaster recovery and business resumption
           efforts related to buildings, equipment, and personnel by reviewing the:
            •    Occupant Emergency Plans1 for the five offices.
            •    Incident Management Plan2 template provided to all 18 of the IRS’ Senior
                 Commissioner’s Representatives.3
            •    Internal Revenue Manual sections related to emergency preparedness.
            •    Training session presentation for Incident Commanders.4
            •    Leader’s Digest articles on a nationwide emergency contact telephone number
                 and about how to obtain emergency information through the Internet.




1
  An Occupant Emergency Plan contains the procedures for employees to follow during an emergency situation.
2
  An Incident Management Plan describes the overall coordinated actions to be taken by the Incident Management
team to ensure recovery and restoration of a facility when an incident occurs.
3
  Senior Commissioner’s Representatives are designated representatives authorized to act on behalf of the
Commissioner/Deputy Commissioners in cross-functional and certain other administrative areas. The 18 Senior
Commissioner’s Representatives cover all IRS offices nationwide.
4
  An Incident Commander is directly responsible for frontline management of the incident. The Incident
Commander, in conjunction with other onsite business team managers, will develop and implement response
strategies and will use existing disaster preparedness documents for the recovery of business operations.
                                                                                                       Page 12
                       The Internal Revenue Service Successfully Accounted for
                            Employees and Restored Computer Operations
                                   After Hurricanes Katrina and Rita



        B. Assessed the IRS’ post-disaster recovery and business resumption activities related to
           buildings, equipment, and personnel. We:
             1. Interviewed the Incident Commander of the Nashville, Tennessee, Emergency
                Operations Command Center5 and the Associate Director, Emergency
                Management Program Office,6 regarding their post-Hurricane assignments. We
                also interviewed personnel from their staffs.
             2. Reviewed the following documents relating to activities after the Hurricanes made
                landfall.
                 •   The IRS’ summary document sent to the Department of the Treasury that
                     included the lessons learned from the disasters.
                 •   Minutes of the IRS’ Emergency Management and Preparedness Working
                     Group7 meetings held after the two Hurricanes.
                 •   The IRS’ summary of temporary duty assignments provided to employees in
                     the affected areas.
        C. Assessed the preparedness disaster recovery and business resumption efforts related
           to buildings, equipment, and personnel by reviewing documentation from the IRS’
           Modernization and Information Technology Services organization,8 including logs of
           daily backup tapes and the policies and procedures for the business continuity.
        D. Assessed the post-disaster recovery and business resumption activities related to
           protection of taxpayer data through research of email messages made in the
           post-Hurricane aftermath. We focused on messages relating to the following
           important activities.
             •   Restoration of network service to the users in the affected areas, including
                 obtaining equipment, changing the physical location of the servers, transporting
                 backup tapes to another city, and providing network connectivity to the data files.


5
  The Emergency Operations Command Center serves as the command post for all incident management decisions
and coordinates the business resumption for IRS offices affected by a disaster.
6
  The Emergency Management Program Office, under the Mission Assurance and Security Services organization,
develops policies, procedures, and processes to ensure optimal preparedness and effective management of incidents
affecting IRS critical functions.
7
  The Emergency Management and Preparedness Working Group is led by the Associate Director, Emergency
Management Program Office, under the Mission Assurance and Security Services organization. The Group is
tasked with improving and revising the IRS’ guidance to employees in managing future emergency situations.
8
  The Modernization and Information Technology Services organization is responsible for supporting the IRS on
Information Technology issues, which include protecting and restoring computer operations and locating all
computers after disasters.
                                                                                                         Page 13
                       The Internal Revenue Service Successfully Accounted for
                            Employees and Restored Computer Operations
                                   After Hurricanes Katrina and Rita



             •   Additional activities to assist other Federal Government bureaus and agencies,
                 such as the Federal Emergency Management Agency9 and the National Finance
                 Center.10
II.     To determine whether taxpayer data had been adequately protected within IRS office
        buildings affected by Hurricanes Katrina and Rita, we:
        A. Met with Mission Assurance and Security Services11 organization personnel and local
           officials to determine whether any incidents of vandalism or theft had been reported
           and addressed.
        B. Obtained the latest status of visits and assessments made by the IRS related to the five
           offices affected by the Hurricanes.
        C. Determined whether damage assessments indicated a lack of physical security of IRS
           office space and conducted further tests to determine whether physical data loss
           occurred. We:
             1. Identified the inventory of 13 computers assigned to the Gulfport, Mississippi,
                office using the Information Technology Asset Management System12 and the
                Enterprise Systems Management’s Tivoli®13 system, as of October 7, 2005.
             2. Conducted a physical reconciliation of the 13 computers to ensure all computers
                were accounted for properly.
             3. For three missing computers, identified possible content of the computers by
                profiling the employees who used the computers.
III.    To determine whether taxpayer data had been adequately protected outside of IRS office
        buildings in areas affected by Hurricanes Katrina and Rita, we:
        A. Met with personnel from the Mission Assurance and Security Services and the
           Modernization and Information Technology Services organizations to determine
           whether the IRS had initiated any efforts to identify missing or lost laptop computers
           of those employees affected by the disasters.


9
  The Federal Emergency Management Agency under the Department of Homeland Security is tasked with
responding to, planning for, recovering from, and mitigating against disasters.
10
   The National Finance Center is a United States Department of Agriculture operation which provides payroll,
personnel, administrative payments, accounts receivable, property management, budget, and accounting activities
for its own agency as well as for over 130 other Federal Government agencies.
11
   The mission of the Mission Assurance and Security Services organization is to support the vital mission of the
IRS by assuring the security and resilience of critical Agency functions and business processes.
12
   The Information Technology Asset Management System is the IRS’ official computer inventory tracking system.
13
   Tivoli® is a registered trademark owned by International Business Machines.
                                                                                                         Page 14
                 The Internal Revenue Service Successfully Accounted for
                      Employees and Restored Computer Operations
                             After Hurricanes Katrina and Rita



      B. Identified 417 laptop computers on the Information Technology Asset Management
         System assigned to the 5 offices affected by the disasters as of October 7, 2005.
      C. Conducted a reconciliation of the 417 laptop computers to ensure they were
         accounted for properly.
         1. For the 273 laptop computers assigned to specific employees, we obtained current
            email addresses and contact telephone numbers for the employees and contacted
            the employees to confirm the computer name and bar code of each employee’s
            laptop computer.
         2. For the 144 laptop computers not assigned to specific employees, we conducted a
            physical reconciliation to ensure all laptop computers were accounted for
            properly.
         3. For four missing laptop computers, we identified the possible content of the
            computers through discussions with local Information Technology Service
            organization personnel.
IV.   To determine whether employee user accounts in the five offices were compromised and
      used to make unauthorized accesses, we:
      A. Met with Mission Assurance and Security Services organization personnel to identify
         all reported incidents as a result of the Hurricanes in the affected five offices,
         particular those pertaining to compromised user accounts or unauthorized accesses.
      B. Analyzed Tivoli® data for the 417 laptop computers to identify 118 laptop computers
         for which Tivoli® recorded a successful network connection after the Hurricanes
         made landfall. The remaining 299 laptop computers had not connected to the
         network after the Hurricanes made landfall, as of October 7, 2005.
      C. Contacted the employees assigned to the 118 laptop computers to confirm they used
         their laptop computers to connect to the IRS network.




                                                                                      Page 15
                   The Internal Revenue Service Successfully Accounted for
                        Employees and Restored Computer Operations
                               After Hurricanes Katrina and Rita



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Dan Ardeleano, Senior Auditor
Jacqueline Nguyen, Senior Auditor
Midori Ohno, Senior Auditor
Larry Reimer, Senior Auditor
Stasha Smith, Senior Auditor




                                                                                     Page 16
                 The Internal Revenue Service Successfully Accounted for
                      Employees and Restored Computer Operations
                             After Hurricanes Katrina and Rita



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Deputy Chief, Mission Assurance and Security Services OS:MA
Director, Communications, Liaison, and Disclosure SE:S:CLD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA
       Management Controls Coordinator, Agency-Wide Shared Services OS:A:F




                                                                             Page 17
     The Internal Revenue Service Successfully Accounted for
          Employees and Restored Computer Operations
                 After Hurricanes Katrina and Rita



                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 18
The Internal Revenue Service Successfully Accounted for
     Employees and Restored Computer Operations
            After Hurricanes Katrina and Rita




                                                     Page 19
The Internal Revenue Service Successfully Accounted for
     Employees and Restored Computer Operations
            After Hurricanes Katrina and Rita




                                                     Page 20
The Internal Revenue Service Successfully Accounted for
     Employees and Restored Computer Operations
            After Hurricanes Katrina and Rita




                                                     Page 21
The Internal Revenue Service Successfully Accounted for
     Employees and Restored Computer Operations
            After Hurricanes Katrina and Rita




                                                     Page 22
